              U.S. Department of the Interior
                  Office of Inspector General




Audit of the
Minerals Management Service
Audit Offices




                                       MMS Photo




No. 2003-I-0023                   March 2003
                                                                 C-IN-MMS-015-2001-A



              United States Department of the Interior
                             Office of Inspector General
                               134 Union Boulevard, Suite 510
                                   Lakewood, CO 80228



                                                                          March 31, 2003
                                                                                    7430
Memorandum

To:        Assistant Secretary for Land and Minerals Management

From:      Anne Richards
           Regional Audit Manager, Central Region

Subject:   Final Report, Audit of the Minerals Management Service Audit Offices
           (No. 2003-I-0023)

        The attached report presents the results of our audit of the Minerals Management
Service (MMS) audit offices. Our objective was to determine whether MMS’ internal
quality control system provides reasonable assurance that MMS audits are performed in
accordance with established policies, procedures, and the Government Auditing
Standards (Standards). We concluded that the system was not sufficient and that some of
MMS’ audits did not meet the Standards.

        In the December 19, 2002 response to the draft report, the Director of MMS
expressed general agreement with the report’s findings and concurrence with all of our
recommendations. However, the response did not provide sufficient information for us to
consider all of the recommendations resolved. Accordingly, we are requesting that
MMS provide us with the information requested in Appendix 7. Please respond to this
report by May 9, 2003.

       The legislation, as amended, creating the Office of Inspector General requires that
we report to Congress semiannually on all audit reports issued, actions taken to
implement our audit recommendations, and recommendations that have not been
implemented.

       We appreciate the cooperation provided by the MMS staff during our audit. If
you have any questions regarding this report, please call me at (303) 236-9243.

Attachment
EXECUTIVE SUMMARY
                      We audited the Minerals Management Service’s (MMS)
RESULTS IN BRIEF      audit offices and discovered an organization challenged by
MMS audit work did    both management and control issues.
not always meet
Government Auditing   MMS auditors are responsible for monitoring the annual
Standards.            collection of $6 billion in royalties and fees for minerals
                      produced from federal and Indian lands. The objective of
                      this audit was to determine if MMS had effective internal
                      quality controls sufficient to ensure that its audits follow
                      Government Auditing Standards (Standards). We
                      concluded MMS’ systems and safeguards are insufficient,
                      and that some of its audit work did not meet the Standards.
                      As a result of our audit, we discovered:

                         ¾ MMS’ internal audit process was ineffective
                           because it lacked accountability, did not cover all
                           audit work, and was incomplete.

                         ¾ An instance of MMS auditors recreating working
                           papers that they could not find. Rather than
                           informing us that the papers were lost, they
                           recreated and backdated the files to when they
                           believed the work had been performed. One of the
                           employees who created the false documents was
                           given a monetary award for “creativity.” We also
                           identified other files that could not be found.

                         ¾ Not all MMS auditors met their continuing
                           education requirements. Specifically, 12 percent of
                           MMS auditors were deficient in their training and
                           therefore should not have been conducting audits
                           until they received the required training.

                      We have made several recommendations regarding these
                      issues; all are presented throughout the report and in
                      Appendix 1.




                                    i
MMS ACTIONS   As a result of our audit, MMS is taking some actions to
              correct and strengthen its internal quality control review
              process. MMS is creating a database to follow up on its
              recommendations from its internal quality control reviews,
              updating the internal review checklist, and providing
              results of individual quality reviews to appropriate
              management officials.




                             ii
                                              CONTENTS
                                                                                                                       Page

INTRODUCTION .......................................................................................... 1

        BACKGROUND .................................................................................................    1

RESULTS OF AUDIT .................................................................................... 2

        INTERNAL QUALITY CONTROL SYSTEM ...........................................................                     2
        DUE PROFESSIONAL CARE ................................................................................          6
        PROFESSIONALISM ............................................................................................    8
        SAFEGUARDING AUDIT FILES ...........................................................................            8
        CONTINUING PROFESSIONAL EDUCATION ........................................................                     10
        ADHERENCE TO THE GOVERNMENT AUDITING STANDARDS .............................                                   12
        ADDITIONAL ISSUES .........................................................................................    13

APPENDICES

        1. RECOMMENDATIONS ..................................................................................          15
        2. MINERALS MANAGEMENT SERVICE ORGANIZATION,
           RESPONSIBILITIES, AND RESOURCES .........................................................                   17
        3. RESULTS OF REVIEW OF 14 AUDIT SUBCASES ............................................                         18
        4. SCOPE AND METHODOLOGY .......................................................................               26
        5. PRIOR AUDIT COVERAGE ...........................................................................            28
        6. MMS RESPONSE ..........................................................................................     29
        7. STATUS OF RECOMMENDATIONS ..................................................................                37




                                                          iii
INTRODUCTION
             This report presents the results of our audit of the Minerals
             Management Service (MMS) audit offices. We performed
             this audit using the guidance published by the President’s
             Council on Integrity and Efficiency for external quality
             control reviews.

             The objective of our audit was to determine whether
             MMS’ internal quality control system provides reasonable
             assurance that MMS audits are performed in accordance
             with established policies, procedures, and the Government
             Auditing Standards.

             MMS manages the Nation’s oil, gas, and other mineral
BACKGROUND   resources on the Outer Continental Shelf. It also collects,
             accounts for, and disburses revenues from minerals
             produced on federal and Indian lands. MMS collects
             about $6 billion annually in rents, royalties, and other
             payments. To help ensure that the correct amounts of
             royalties are reported and received, MMS – which includes
             in its workforce about 165 auditors – conducts audits as
             well as other compliance activities. In addition, MMS
             contracts through cooperative agreements and delegations
             with state and Tribal auditors; we did not include the audit
             work conducted under these contracts in our audit.

             During the period of our audit, MMS was designing and
             implementing a re-engineered compliance process. This
             new process will shift the focus from auditing on a
             company basis (auditing all of a company’s leases at the
             same time) to a property basis (auditing leases grouped in
             one producing geographic location).

             To estimate expected royalty payments the auditors will
             team with geologists, economists, petroleum engineers,
             and other related disciplines forming a multifunctional
             team. MMS states this will result in fewer audits and
             improve the timeliness of compliance activities. Some of
             MMS’ auditors have already been assigned to the re-
             engineering activity rather than traditional audit work.
             Additional information about the MMS organization,
             responsibilities, and resources is presented in Appendix 2.



                             1
RESULTS OF AUDIT
                        MMS policy requires that the Government Auditing
                        Standards (Standards), issued by the Comptroller General
                        of the United States, be used when conducting royalty
                        audits. Following these Standards – including
                        independence, professional judgment, and a trained audit
                        staff – ensures information in audit reports is credible.


                        MMS’ internal quality control system does not provide
INTERNAL QUALITY        assurance that its audits are performed in accordance with
CONTROL SYSTEM          established policies, procedures, and the Government
MMS’ internal quality   Auditing Standards. Both the Standards and the MMS
control system is       Audit Manual require an effective internal quality control
ineffective.            system to be in place. MMS’ system relies on an internal
                        quality control review process (internal review). The
                        internal reviews are to be conducted by MMS’ Center for
                        Excellence. MMS has established a cycle to ensure that
                        each of its field offices is reviewed at least once every two
                        to three years.

                        However, design flaws render the internal review process
                        ineffective. Specifically, the internal review process does
                        not ensure accountability for taking corrective action, the
                        method for selecting audits for review is insufficient, and
                        reviewers do not check for compliance with all auditing
                        standards.

                        Accountability
                        There was insufficient accountability for corrective actions
                        in MMS’ internal review process.

                           ¾   The process was placed several layers below the
                               management level that is responsible for audits. It
                               is located in the Planning and Accountability Team
                               (Team). The Team is one of four in the Center for
                               Excellence, which reports to the Deputy Associate
                               Director of Minerals Revenue Management
                               (MRM). The Associate Director of MRM is the
                               management official responsible for audits. The
                               Team reports to an official two layers below the
                               level responsible for overall audit quality.




                                       2
   ¾   A General Schedule grade 12 auditor who is
       several grades below the rank of those whom he is
       reviewing conducts the internal reviews.

   ¾   There was no formal process to communicate
       findings to upper management. The results of the
       internal reviews are only provided to the auditors
       that conducted the original audit.

   ¾   MMS did not have a formal process to follow up on
       previously identified problems.

In our opinion, a well-designed internal quality review
process should occupy a prominent place in the
organization. The principal reviewer should be at a grade
level commensurate with the individuals that he or she
reviews. The results of the reviews should be formally
communicated to management above the individual audit
supervisors or offices, and the offices should be required
to provide a written corrective action plan in response to
any deficiencies noted. The office responsible for the
internal reviews should conduct follow-up reviews when
significant deficiencies are found.

Audit Selection
Only a portion of MMS’ audit work is subject to an
internal review, and the auditors under review can
influence the selection process. When selecting audits for
an internal review, the MMS Compliance Tracking System
is queried for audits having a closed status. This status is
then confirmed with the office or supervisor responsible
for the audit work. In addition the team verifies that the
audit selected required the lessee to pay additional
royalties (commonly called an “order to pay”). The
review team then eliminates from its internal review
selection any audit identified as not having an “order to
pay.” Therefore, if an audit did not result in an “order to
pay,” it would never undergo an internal review.

By limiting the internal reviews to only those audits that
resulted in an “order to pay,” the internal review process is
ignoring a significant portion of MMS audit work. It was
impossible for us to determine the number of audits that
would have been excluded from the internal quality
reviews. All audit work must be conducted in accordance
with the Standards and MMS’ internal guidance, including

              3
the work that does not result in an audit finding (“order to
pay.”) All audit work subject to the Standards should be
covered by an effective internal quality control system.

Also, by checking with the auditee before selecting an
audit to review, the review team allows the auditee to
potentially exclude an audit with known problems or
deficiencies from the internal review process. While we
did not identify any specific instances of an auditee
removing an audit from consideration by the review team
because of known deficiencies, the potential exists.

Review Checklist
MMS has been using an incomplete checklist when
conducting its internal reviews. The checklist, or questions
to be answered by the review, was based on the Standards
but was incomplete in regard to due professional care
(sound judgment), audit planning, and reporting. For
example, the checklist did not include questions designed
to evaluate:

   ¾   Whether the audit work, in total, met the standard
       of due professional care.

   ¾   The completeness of the documentation in the areas
       of audit planning, management controls, and prior
       audit coverage.

   ¾   Whether supervisory review notes, comments, and
       questions were properly answered in the working
       papers.

In our detailed evaluation of individual working paper files
for 14 selected audits, we found problems with some of the
areas omitted from MMS’ internal review checklist.

The internal review process needs to be designed to allow
the reviewers to reach an opinion on whether the audit
work reviewed meets the Standards. In order for the
checklist to be an adequate tool for the review teams,
MMS needs to expand its checklist to include all the
applicable Standards and to call for conclusions on the
overall quality of the audit work under review.

As a result of the deficiencies identified, MMS’ internal
quality control process did not provide reasonable

              4
                          assurance that audits are being conducted in accordance
                          with the Standards and the MMS Audit Manual, thus
                          MMS was not in compliance with the Standards.

MMS ACTIONS               MMS is taking some actions to correct and strengthen its
                          internal review process to address some of the deficiencies
MMS is taking action to   we identified. Specifically, MMS is taking steps to:
correct and strengthen
its internal review          ¾ Provide the results of the individual reviews to the
process.                       appropriate management officials.

                             ¾ Create a database and process to follow up with
                               organizations within six months of an internal
                               review to ensure that recommendations have been
                               addressed.

                             ¾ Provide additional training to its auditors on the
                               requirements of the Standards.

                             ¾ Identify a methodology that will allow the review
                               teams to independently identify audits for review.

                             ¾ Include audit work that did not result in an order to
                               pay in the review process.

                             ¾ Update the internal review checklist to include
                               additional areas noted in the Standards and in the
                               peer review guidelines published by the President’s
                               Council on Integrity and Efficiency.

RECOMMENDATIONS           We recommend that the Director, MMS, correct and
                          strengthen the design and function of the internal quality
                          control review process. Specific improvements should
                          include the following:

                             ¾ Place the internal review function directly under
                               the Associate Director of Minerals Revenue
                               Management.

                             ¾ Require that internal review reports be transmitted
                               to the Associate Director of Minerals Revenue
                               Management.

                             ¾ Ensure the individuals conducting the internal
                               reviews are at an appropriate grade level.


                                        5
                                       ¾ Ensure all audit work is subject to review and that
                                         the internal review team independently selects the
                                         audits to be reviewed.

                                       ¾ Require that auditors performing internal reviews
                                         check for compliance with all Standards as well as
                                         the MMS Audit Manual.

                                  MMS auditors did not always meet the Standards for
DUE PROFESSIONAL                  conducting their audits with due professional care.
CARE                              We believe these deficiencies occurred because MMS had
MMS auditors’ work did            not made a consistent commitment to conduct audits in
not always comply with            accordance with the required Standards and the MMS
the Standards.                    Audit Manual.

                                   MMS’ Audit Manual states that royalty audits are to be
                                   conducted in accordance with the Standards. The
                                   Standards make it clear that the work must be fully
                                   supported by evidence and documented in the audit
                                   working papers. The Standards state:

                                           Working papers should contain
                                           sufficient information to enable an
                                           experienced auditor having no
                                           previous connection with the audit
                                           to ascertain from them the evidence
                                           that supports the auditors’
                                           significant conclusions and
                                           judgments.

                                  We evaluated individual audit working paper files for 14
                                  audit subcases1 (audits) to determine if we could ascertain
                                  from the documentation the evidence that supported the
                                  auditors’ significant judgments and conclusions. We did
                                  not re-evaluate the individual audit conclusions and
                                  accordingly express no opinion on them.

                                  We found numerous problems or missing documentation
                                  for audit planning, supervision, fieldwork, and/or reporting
                                  in 10 of 14 audits. Standards were not met because
                                  sufficient audit work was not performed or the work
                                  performed was not sufficiently documented. Specifically,
                                  we found the following deficiencies:

1
  We originally selected a sample of 15 audit subcases to review, but the working paper files were missing
for one subcase. MMS officials improperly recreated working papers for this audit. This issue is discussed
in detail in the Professionalism section of this report.

                                                   6
                     ¾ No written audit plan was prepared for four audits.

                     ¾ The audit plan was not updated to include a major
                       change in the audit scope and methodology for one
                       audit.

                     ¾ There was no timely supervisory review of
                       working papers for four audits.

                     ¾ Supervisory reviews were inadequate for two
                       audits.

                     ¾ The sampling criteria used to conduct the audit
                       were not documented in the working papers for
                       seven audits.

                     ¾ The results of significant audit steps and
                       conclusions (for example, tests of management
                       controls) were not documented for seven audits.

                     ¾ The audit objective was not explained in the report
                       for one audit.

                     ¾ The audit issue letter or close-out summary was not
                       cross-indexed to supporting working papers for
                       two audits.

                     ¾ The audit reports did not disclose what Standards
                       were followed for two audits.

                  We identified other weaknesses with the 14 audits. We
                  have provided MMS with a detailed list, by audit number,
                  of the problems we identified. These weaknesses, while
                  needing management attention, did not merit detailed
                  mention in this report. Appendix 3 links the deficiencies
                  we identified with the specific Standards and the pertinent
                  sections of the MMS Audit Manual.

RECOMMENDATIONS   We recommend that the Director, MMS:

                     ¾   Ensure all audit activities are conducted with due
                         professional care and auditors maintain the highest
                         level of integrity in all of their professional
                         activities by instituting a strengthened internal
                         quality control system.




                               7
                              ¾   Ensure an external quality control review is
                                  conducted of MMS’ audit activities after the
                                  corrective actions outlined in this report have been
                                  implemented.

                              ¾   Disclose in future audit products that MMS has not
                                  undergone a recent external quality control review
                                  and does not have a current opinion on its internal
                                  quality control system until a subsequent external
                                  quality control review is conducted.

                           We recommend that the Assistant Secretary:

                              ¾   Require periodic updates on the status of the
                                  corrective actions until the MMS audit offices
                                  receive an unqualified opinion on an external
                                  quality control review.


                           We found that in one instance MMS officials did not
PROFESSIONALISM            adhere to high levels of integrity and professionalism
MMS auditors recreated     required by the Standards. We selected for review an audit
audit working papers.      involving Navajo Indian leases. When MMS officials
                           could not locate this audit file, instead of informing us of
                           that fact, they recreated and backdated the working papers.
                           The recreated papers were dated to when MMS believed
                           the work had been done rather than when the replacement
                           working papers were actually created.

                           MMS then granted a cash award, citing “creativity,” to the
                           auditor who reconstructed the working papers.

                           MMS delivered the newly created working papers to us
                           without any mention of the reconstruction. MMS only
                           admitted that they had reconstructed the working papers
                           after we confronted them with questions about the quality
                           of the recreated working papers.



                          Because a working paper file that we selected for our
SAFEGUARDING              detailed review was missing and was improperly recreated,
AUDIT FILES               we extended our audit to include steps to determine if
MMS could not locate      working paper files generally existed and were complete
some of its audit working for MMS audits. We selected a statistical sample of 191
paper files.              audits completed between May 1997 and October 2001
                          (see Appendix 4). We then visited the MMS audit offices


                                  8
                  and examined the audit files and evaluated the filing
                  procedures. The working papers for 27 audits in the
                  sample were not found, but MMS researched each case
                  and we accepted its explanations that the files for 21 audits
                  had not been created or needed. MMS was unable to
                  provide adequate explanations as to why the six remaining
                  audit files were missing. Of the six missing files, two
                  pertained to Indian leases.

                  Using a 95 percent confidence rate, we statistically
                  projected the results of our sample. At that level of
                  confidence, the working papers for at least 14 – and
                  possibly as many as 62 audits – are missing from a total
                  universe of 987 audits.

                  In addition, we judgmentally selected an additional 58
                  audits. These audits were performed by the same
                  individuals who recreated the Navajo Indian lease working
                  papers. We added this step to determine if working papers
                  existed and contained proper documentation. We were
                  able to account for all these files although some of these
                  files were incomplete.

                  We requested audit files for a total of 249 audits in both
                  the statistical and judgmental samples and actually
                  reviewed 192 sets of files. Of the 192 sets reviewed, 30
                  (16 percent) were incomplete. For example, working
                  papers were missing or the master index was missing.

                  Based on our analysis of the two samples of working
                  papers, we identified internal control weaknesses for
                  safeguarding audit documentation at four of the six audit
                  field offices. The two other field offices and the nine
                  residency offices, however, had good controls over their
                  working paper files.

RECOMMENDATIONS   We recommend that the Director, MMS:

                     ¾ Ensure all audit field offices have adequate
                       controls over audit working papers, including an
                       up-to-date log annotated with storage locations and
                       secured containers for storage.

                     ¾ Ensure all stored working paper files are complete.



                           9
                          MMS did not ensure that the individual auditors had
CONTINUING                sufficient Continuing Professional Education (CPE) hours
PROFESSIONAL              to meet Standards. The Standards require that every
EDUCATION                 auditor responsible for planning, directing, conducting, or
A significant number of   reporting on audits under these Standards have a minimum
auditors did not meet the of 80 hours of CPEs every two years, with no less than 20
continuing professional   hours in any one year. The Standards impose this
education requirements. requirement jointly on the individual auditors and the audit
                          organization but hold the organization responsible for
                          documenting training records and establishing and
                          implementing a program to ensure auditors meet these
                          qualifications.

                            Insufficient Continuing Professional Education Hours
                            Based on a review of MMS’ training information, a
                            significant number of MMS auditors (12 percent) did not
                            obtain the minimum required CPE hours for the time
                            period reviewed. We reviewed MMS auditors’ training for
                            1999-2000 timeframe. We limited our review of the
                            training records to those employees who worked on audits
                            during the two-year period. We excluded part-time
                            auditors, recent hires, and those auditors assigned to the
                            MMS re-engineering project.

                            MMS’ training records showed that 18 (12 percent) of
                            MMS auditors did not comply with the CPE requirements
                            of the Standards. Auditors who do not have sufficient
                            CPEs are not qualified to perform audits in accordance
                            with the Standards.

                            MMS lacked a competent tracking system, demonstrated
                            by MMS’ difficulty in providing lists of training hours for
                            its auditors. We had to submit repeated requests,
                            sometimes contacting various offices within MMS, to get
                            training information for employees or to identify
                            employees who should be excluded (part-time, recent hires
                            and auditors assigned to the re-engineering project) from
                            the evaluation of training records. At the time of our
                            review, MMS required individual supervisors to track the
                            training hours for their employees rather than using a
                            centralized database or tracking system. Some individual
                            supervisors did not fulfill their responsibility to keep track
                            of the training provided for their staff. Further, because of
                            the ongoing re-engineering effort, some auditors were
                            reassigned to different supervisors and duty locations
                            during the time period under review. This increased the

                                    10
                          difficulty of tracking and recording training hours for these
                          auditors. Consequently, supervisors did not always have
                          the necessary information to evaluate whether the auditors
                          were properly trained.

                          Documentation to Support Reported Training
                          MMS was not able to provide support that its auditors
                          actually received all the CPE hours listed for 1999 and
                          2000. We selected 20 auditors based on location and
                          grade and reviewed MMS’ supporting documentation.
                          MMS could not provide documentation to support the
                          minimum required training for 13 of 20 auditors for the
                          two-year period. For example:

                             ¾ The number of hours listed for a course exceeded
                               the hours shown on the supporting documentation.

                             ¾ The auditor did not actually attend all the courses
                               listed.

                             ¾ Courses were sometimes counted twice using
                               different course titles in the list of training hours.

                          In addition to these problems, MMS could not provide any
                          documentation for a total of 113 hours of training out of
                          1,724 hours reviewed (or six percent) for these 20 auditors.

                          MMS also needs to improve the type of documentation it
                          maintains to support its training record-keeping system.
                          We addressed this issue in a separate management letter to
                          MMS.

MMS ACTIONS               MMS is taking some actions to better track auditors’ CPE
                          hours. Specifically, one of the audit groups is
MMS is taking some        consolidating the databases maintained by the individual
actions to better track   supervisors and adding a critical element to managers’
auditors’ continuing      performance plans to ensure subordinates meet training
professional education    requirements. MMS has stated that it has taken steps to
hours.                    ensure all auditors are on track to meet the training
                          requirements in 2002.

RECOMMENDATIONS           We recommend that the Director, MMS:

                             ¾ Ensure all auditors receive sufficient CPEs as
                               required by the Government Auditing Standards.


                                  11
                      ¾ Develop a centralized system that tracks and
                        monitors the training provided to each auditor.

                      ¾ Maintain appropriate and complete supporting
                        documentation.

                   We believe that MMS failed to fully adhere to the
ADHERENCE TO THE   Standards and its own Audit Manual. This has resulted in
GOVERNMENT         unreliable audit quality and documentation and precludes
AUDITING           established controls from functioning effectively.
STANDARDS
                   Efforts in recent years to expedite audit decisions and re-
                   engineer the royalty compliance process may have
                   inadvertently contributed to the deficiencies in audit
                   working papers.

                   For example, a decision in 1999 to expedite the closure of
                   current audits so that a new audit strategy could begin may
                   have resulted in some auditors disregarding working paper
                   quality standards. An e-mail instruction was sent to
                   auditors requesting an immediate review of their ongoing
                   work to identify and expeditiously close audit work that
                   the auditor did not believe would result in significant
                   findings. The e-mail contained directions on how to
                   properly close out the audit by documenting the decision
                   and its basis and having a supervisor review and approve
                   the decision. All audit organizations must make decisions
                   about how to best use their limited resources, and we do
                   not take exception to the process outlined in the e-mail
                   instruction. However, we were provided copies of the e-
                   mail to justify audit working papers that clearly did not
                   meet quality standards. For example, a copy of the e-mail
                   was included in a folder of loose paper that contained
                   some audit information, but no working papers or
                   conclusions. Also, MMS officials provided a copy of the
                   e-mail to justify why working papers were not available
                   for one audit subcase that we had asked to review. They
                   stated that the audit was closed without working papers.

                   MMS was also in the process of re-engineering its
                   operations during the time period under review. This was
                   a major effort that required the close attention of managers
                   and senior level officials. The re-engineered process will
                   shift the focus from auditing on a company basis to
                   evaluating expected royalty values on a property basis.
                   The re-engineered process will use multifunctional teams,
                             12
                    including auditors, to conduct the expected royalty
                    analyses. MMS plans to conduct significantly fewer audits
                    under this process. We believe this may have contributed
                    to MMS auditors being less stringent about adhering to
                    audit standards that they believed would not matter in the
                    future. In fact, at one of our meetings, an Audit Manager
                    clearly stated that he believed MMS would no longer be
                    conducting audits and did not need to be concerned about
                    having an adequate internal quality control system as
                    required by the Standards.

                    During the course of our audit, some additional issues
ADDITIONAL ISSUES   came to our attention that we believe should be
                    communicated to the management of MMS for corrective
                    action. We prepared a management letter to MMS
                    communicating these issues. However, we believe one
                    issue merits inclusion in this summary report.

                    Written Reports for Audits with No Findings
                    MMS does not prepare written report products for all of its
                    audit work. In general, MMS prepares a report only when
                    an audit concludes that a royalty payor owes additional
                    money. When an audit does not result in an underpayment
                    determination (order to pay), MMS usually does not issue
                    a report. In our sample of 14 audits, eight audits had no
                    royalty findings and only a summary of results was
                    prepared. In our opinion, applicable audit standards
                    require that MMS notify the company of the results with a
                    written report for all audits, regardless of the conclusions.
                    MMS told us that when the audit work is terminated
                    without an order to pay, the results of the work do not need
                    to be formally communicated in writing to the subject of
                    the audit (auditee). We disagree with this policy.

                    The 1994 version of the Government Auditing Standards,
                    as amended, Section 7.2, states, “Auditors should prepare
                    written audit reports communicating the results of each
                    audit.” We believe that this reporting requirement applies
                    to all MMS audits conducted under the Standards because
                    even when an audit concludes that royalties were not
                    underpaid, this conclusion represents the results of that
                    completed audit. In our opinion, the auditee (the royalty
                    payor) has a direct interest in the audit results and
                    therefore is entitled to receive a report.



                              13
                   In its Exposure Draft of proposed changes to the
                   Government Auditing Standards, dated January 2002, the
                   General Accounting Office continues to include this
                   requirement.

                   Therefore, we strongly suggest that MMS prepare audit
                   reports in accordance with the Standards for all audits,
                   including those that do not result in findings.

                   In the December 19, 2002 response (Appendix 6) to the
MMS RESPONSE AND   draft report, the Director, MMS, generally agreed with the
OIG REPLY          findings and concurred with all of the report’s
                   recommendations.

                   In its response, MMS requested that we revise our overall
                   conclusion that it had not complied with the Standards.
                   Specifically, MMS agreed that in some cases its audits did
                   not comply with all the Standards, but believes that this
                   condition did not reflect on the overall quality of the audit
                   program. Based on the response, we revised the executive
                   summary of the report to clarify that not all of the MMS
                   audits reviewed were in noncompliance with the
                   Standards.

                   Based on the MMS response, we consider
                   Recommendations 1b, 2, 4, 9, and 10 resolved and
                   implemented and Recommendation 3 resolved but not
                   implemented. Finally, MMS concurred with
                   Recommendations 1a, 1c, 1d, 1e, 5, 6, 7, and 8, but we
                   request that MMS provide the target dates for
                   implementation of the corrective actions. The status of all
                   recommendations is shown in Appendix 7.




                                14
                                                                              Appendix 1


                        RECOMMENDATIONS
We recommend that the Director, MMS:

   1. Correct and strengthen the design and function of the internal quality control
      review process. Specific improvements should include the following:

      a. Place the internal review function directly under the Associate Director of
         Minerals Revenue Management.

      b. Require that internal review reports be transmitted to the Associate Director of
         Minerals Revenue Management.

      c. Ensure individuals conducting the internal reviews are at an appropriate grade
         level.

      d. Ensure all audit work is subject to review and that the internal review team
         independently selects the audits to be reviewed.

      e. Require auditors performing internal reviews to check for compliance with all
         generally accepted government auditing standards as well as the MMS Audit
         Manual.

   2. Ensure all audit activities are conducted with due professional care and auditors
      maintain the highest level of integrity in all of their professional activities by
      instituting a strengthened internal quality control system.

   3. Ensure an external quality control review is conducted of MMS’ audit activities
      after the corrective actions outlined in this report have been implemented.

   4. Disclose in future audit products that MMS has not undergone a recent external
      quality control review and does not have a current opinion on its internal quality
      control system until a subsequent external quality control review is conducted.

   5. Ensure all audit field offices have adequate controls over audit working papers,
      including an up-to-date log annotated with storage locations and secured
      containers for storage.

   6. Ensure all stored working paper files are complete.

   7. Ensure all auditors receive sufficient CPE as required by the Standards.

   8. Develop a centralized system that tracks and monitors the training provided to
      each auditor.


                                           15
   9. Maintain appropriate and complete supporting documentation of CPE received by
      the auditors.

We believe that the seriousness of the deficiencies that we found in this audit warrant an
additional recommendation.

We recommend that the Assistant Secretary:

   10. Require periodic updates on the status of the corrective actions until the MMS
       audit offices receive an unqualified opinion on an external quality control review.




                                           16
                                                                            Appendix 2


           MINERALS MANAGEMENT SERVICE
   ORGANIZATION, RESPONSIBILITIES, AND RESOURCES
The Minerals Management Service (MMS) was created by Secretarial Order in 1982 to
consolidate the management of the public’s mineral resources under one agency. MMS
has two operational program areas: The Offshore Minerals Management program
manages the Nation’s natural gas, oil, and other mineral resources on the Outer
Continental Shelf, and the Minerals Revenue Management program collects, accounts
for, and disburses revenues from offshore mineral leases and from onshore mineral leases
on Federal and most Indian lands.

The audit offices are part of the Minerals Revenue Management program. The auditors
verify the accuracy of payments made by companies for minerals extracted from
approximately 26,000 producing leases. Following a structured approach contained in
the MMS Audit Manual, an audit determines whether royalties were valued and paid in
accordance with MMS’ regulations contained in the Code of Federal Regulations (30
CFR).

Before October 2000, the MMS audit offices were known as compliance divisions and
were organizationally independent. Then in October 2000, as part of a comprehensive
reorganization, the former Royalty Management Program was renamed the Minerals
Revenue Management and the audit offices were combined with other mineral analytical
functions into a comprehensive compliance and asset management process. The
compliance and asset management process is divided into offshore and onshore
components. Once fully implemented, the reorganization is intended to improve the
timeliness and accuracy of royalty verification at less cost.

The overall fiscal year 2002 operating budget for MMS was $269.6 million and provided
for 1,776 full-time equivalent positions. The Minerals Revenue Management program
was funded at $83.3 million and about 573 positions. MMS employs approximately 165
auditors who work in Lakewood, Colorado; Farmington, New Mexico; Oklahoma City
and Tulsa, Oklahoma; and Dallas and Houston, Texas. Some of these auditors are
stationed at 13 of the largest royalty payor companies. While MMS is solely responsible
for auditing offshore leases, the onshore compliance effort is supplemented by 10 state
and eight Tribal audit organizations under delegated agreements with MMS. The state
and Tribal organizations provide about 119 additional auditors, who coordinate their
individual audits with those performed by MMS.




                                          17
                                                                             Appendix 4


                  SCOPE AND METHODOLOGY
We conducted our audit work in accordance with the Guide for Conducting External
Quality Control Reviews of the Audit Operations of Offices of Inspector General, issued
in April 1997 by the President’s Council on Integrity and Efficiency. We used the 1994
version of the generally accepted government auditing standards as amended,
promulgated by the Comptroller General of the United States, and the January 1998
MMS Audit Manual as our criteria to evaluate MMS’ internal quality control system,
CPE, and selected audit working paper files. We initially began our review as an external
quality control review. Based on subsequent discussions with the General Accounting
Office and our legal counsel, we determined that it was inappropriate for the OIG to
conduct an external review of a segment of the Department of the Interior and we
completed our work as a traditional performance audit.

To accomplish our review, we visited the MMS audit field offices located in Lakewood,
Colorado; Dallas and Houston, Texas; Oklahoma City and Tulsa, Oklahoma; and
Farmington, New Mexico. We also visited nine oil and gas companies where MMS has
established permanent residency offices. Our scope included audits conducted only by
MMS auditors and, therefore, did not include audits conducted by the state and Tribal
audit organizations.

Our audit steps included the following:

   ¾ We evaluated the effectiveness of MMS’ internal quality control system by
     examining the process of selecting audits to review, comparing the review
     checklist to guidance from the President’s Council on Integrity and Efficiency, the
     Standards and the MMS Audit Manual, and gaining an understanding of the
     procedures used to conduct the reviews and report the results of the reviews.

   ¾ We assessed MMS’ compliance with the CPE requirements of the Government
     Auditing Standards by reviewing MMS’ list of training for all auditors. We also
     reviewed the documentation supporting the list of training for 20 auditors.

   ¾ We examined a judgmental sample of 15 audits taken from MMS’ universe of
     closed audits from May 1997 through October 2001. We checked the working
     paper files for compliance with the Government Auditing Standards and the MMS
     Audit Manual.

   ¾ We reviewed a scientific sample of 191 audit files to test the controls to safeguard
     working paper files. We also tested these files for authenticity and completeness
     of the working paper files and some selected aspects of the Standards, including
     supervisory review, planning, and documentation.


                                           26
              For this audit step, we statistically sampled MMS’ closed or appealed
               audit subcases for the period of May 1997 through October 2001. The
               sample consisted of 191 randomly selected subcases (audits) out of a
               sampling universe of 987 subcases, exclusive of state and tribal audits.
               The following parameters were used to select the sample size:

                  o confidence level of 95 percent,

                  o expected deviation (error) rate of one,

                  o tolerable deviation rate of three.

   ¾ We reviewed 58 audit working paper files for the three MMS employees that
     were implicated in the recreation of the working papers for one audit. We also
     tested these files for authenticity and completeness of the working paper files and
     some selected aspects of the Standards, including supervisory review, planning,
     and documentation.

We conducted our audit in accordance with the Government Auditing Standards issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures as we considered necessary under the
circumstances.




                                           27
                                                                               Appendix 5


                     PRIOR AUDIT COVERAGE
The previous external quality control review of the MMS audit offices was conducted by
the OIG. The report (No. 98-I-398) concluded that MMS was generally in compliance
with the Government Auditing Standards and its audit manual. The review further found
that MMS conducted audits in a professional manner, audit conclusions were adequately
supported by the working papers, and most auditors were current with their CPE
requirements. However, the review also disclosed the following weaknesses:

   ¾ Auditors did not prepare a risk assessment for compliance with laws and
     regulations.

   ¾ The internal quality control process did not check for compliance with all the
     elements of the Government Auditing Standards.

   ¾ Math computations were not independently verified.

   ¾ Some reports were not issued in a timely manner.

   ¾ Supervisory review of the working papers was not always in a timely manner.

   ¾ Some reports were issued without evidence of supervisory review of the working
     papers.

   ¾ Minor deficiencies were found in the quality of working papers.

The review stated that these weaknesses did not adversely affect the validity of the audit
findings and conclusions.




                                          28
                                                                        Appendix 7


              STATUS OF RECOMMENDATIONS
Finding/Recommendation
       Reference                      Status                Action Requested

1a, 1c, 1d, 1e, 5, 7, and 8   Management concurs;      Please provide the target
                              additional information   dates for implementation.
                              requested.

1b, 2, 4, 9, and 10           Resolved and             No further action is needed.
                              Implemented.

3                             Resolved; scheduled      Please keep us informed of
                              for implementation in    the progress and results of
                              FY 2003.                 the external quality control
                                                       review.

6                             Resolved;                Please provide a specific
                              implementation in        date for completion of
                              progress.                implementation and furnish
                                                       the results of the
                                                       comprehensive review of
                                                       audit case files.




                                        37
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free               800-424-5081
                             Washington Metro Area           202-208-5300
                             Hearing Impaired (TTY)          202-208-2420
                             Fax                             202-208-6081
                             Caribbean Region                340-774-8300
                             Northern Pacific Region         671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                           U.S. Department of the Interior
                             Office of Inspector General
                                 1849 C Street, NW
                               Washington, DC 20240
                                       www.doi.gov
                                      www.oig.doi.gov
